                                     UNCLASSIFIED



          MEMORANDUM REPORT NUMBER IT-A-02-01
              CLASSIFIED CONNECTIVITY PROGRAM:
                       PROGRESS AND CHALLENGES
                                       February 2002

The Classified Connectivity Program (CCP) is an ongoing effort within the Depart-
ment to deploy a standards-based, global network for classified information process-
ing and communications to about 250 embassies and consulates overseas. The
program is intended to assist the Department in meeting objectives in its Informa-
tion Technology (IT) Strategic Plan, FY 2001-FY 2005, of supporting its interna-
tional affairs and diplomatic mission with modern, robust, secure, and cost-effective
IT solutions.

    This report focuses on the Department’s strategy for implementing the CCP to
modernize classified local area networks (C-LANs) at its overseas posts. Specific
objectives of our review were to: (1) determine what, if any, security or operational
problems are inherent in current C-LANs overseas; (2) assess the Department’s
approach to planning and implementing its C-LAN systems modernization via the
Classified Connectivity Program; and (3) identify what changes may be needed to the
Department’s modernization initiative. The purpose, scope, and methodology for
our review can be found at Appendix A.



RESULTS IN BRIEF
Since 1998, the Department has had an ongoing effort to institute up-to-date C-
LAN equipment to help carry out the U.S. foreign affairs mission at about 250 of its
diplomatic and consular posts.1 The overwhelming majority of overseas posts have
had no classified connectivity or inadequate support from outdated networks, which
are increasingly difficult to maintain. The Department’s initial approach to C-LAN
modernization, however, was largely unstructured and with limited funding made
minimal progress—completing only about 20 installations in 1998-99 in contrast to
its original objective of 48 deployments per year over a 5-year period. The Secretary
has made instituting up-to-date technology to support classified communications a
high priority within the Department, spurring efforts to complete CCP deployments

1
  Some posts do not meet the requirements for classified processing and will not receive the
modernized C-LAN equipment.

OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002   1 .

                                     UNCLASSIFIED
                                       UNCLASSIFIED



      to all eligible posts by December 2003. Under the direction of the Program Man-
      agement and Analysis (PMA) Division within the Bureau of Information Resource
      Management (IRM), the Department now has a disciplined CCP approach in place
      and is making continued progress toward meeting this priority objective. Since
      assuming responsibility for the project, PMA has completed an additional 55 deploy-
      ments, for a total of 75 C-LAN modernizations as of September 2001.

          Despite the Secretary’s priority emphasis, CCP implementation efforts have had a
      history of funding uncertainties that have challenged PMA’s ability to accomplish the
      project on schedule. Though program funding is currently back on track, CCP
      implementation remains challenged by issues with equipment procurements, deploy-
      ment logistics, and delays in bandwidth installations that also pose potential risks for
      the program schedule. The current project approach does not include a documented
      strategy for CCP certification and accreditation to help identify and manage systems
      security risks. Further, C-LAN deployments are not adequately supported by IT
      contingency plans to ensure business continuity in case of failures, disruptions, or
      emergencies that affect systems operations at overseas posts.

           Provision of adequate and timely funding will help keep this priority program on
      schedule through its completion. The Department can also improve program
      planning to ensure that systems certification and accreditation are conducted, risks
      are effectively managed, and effective IT contingency strategies are in place to help
      safeguard classified information processing overseas. Such precautions are especially
      critical in the current environment of increasing systems security threats and in view
      of IT deficiencies we identified in recent OIG inspection reports and an assessment
      mandated by the Government Information Security Reform Act (GISRA).2



      BACKGROUND
      Since 1998, IRM has been working to institute a worldwide IT infrastructure to
      support routine and crisis processing of classified information. This program,
      formerly known as C-NT LAN3 modernization, was restructured in October 1999 as
      the CCP within PMA. The CCP is the classified counterpart to A Logical Modern-
      ization Approach (ALMA), the recently completed project to install new servers and


      2
       Senior Management Attention Needed to Ensure Effective Implementation of the Government Information
      Security Reform Act, OIG Memorandum Report Number 01-IT-M-082, September 2001.
      3
       The “NT” in the acronym refers to the Windows New Technology (NT) operating system on
      which the modernized C-LAN systems are based.



2 .       OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002

                                       UNCLASSIFIED
                                     UNCLASSIFIED



desktop computers for sensitive but unclassified processing at overseas missions.
The CCP addresses the lack of classified connectivity at many posts, along with
problems in other locations with existing Banyan local area networks that are based
on older proprietary hardware and software and require inefficient user processes.
The Banyan networks are also subject to extended outages and are increasingly
difficult and costly to maintain. Replacement of the outdated classified client server
infrastructure is not an option because Banyan is no longer supported by the desig-
nated supplier.

     The entire C-LAN modernization effort involves installation of new classified
networks at approximately 250 overseas locations by the end of 2003, at a total
program cost of about $200 million. Of the approximately 250 locations, C-LAN
equipment is being replaced at about 100 posts that have outdated Banyan or Classi-
fied Information Handling System equipment.4 Classified connectivity is also being
provided to 145 overseas missions that have had no classified systems or e-mail at all.
Locations without classified connectivity have had to rely on other means, such as
secure telephone, fax, and pouch mail, to conduct classified operations—an unten-
able situation in the current information age. Many of these missions are located in
politically sensitive and high-threat regions where rapid and secure communications
are especially critical to ensure the security of American citizens abroad during a
crisis.

    Like ALMA, the CCP is implementing commercial off-the-shelf technology—
specifically, Windows NT operating systems and new hardware, software applica-
tions, and networks—for classified processing and communications worldwide up to
the secret level. The program is eliminating the need for the redundant gateways,
technical support, and systems administrator training now in place just for the
Banyan systems. Standard equipment deployments are intended to minimize the
need for posts independently to implement a variety of incompatible systems—a
situation that has become increasingly problematic. New or expanded capabilities
supported by the classified program include office automation products, e-mail,
browsing technology, and advanced firewall security and encryption technology. The
program also includes faster telegraphic communications via CableXpress, a system
for electronic cable distribution at the desktop. CCP facilitates centralized and
regionalized storage of classified information, as well as selected data sharing among
overseas missions and Federal agencies via the Secret Internet Protocol Router
Network (SIPRNET), a program that uses classified Internet browsing technology.

4
  The Classified Information Handling System is hardware and software previously used within
the Department for encrypting and transmitting classified telegrams over unclassified circuits.




OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002   3 .

                                     UNCLASSIFIED
                                    UNCLASSIFIED



      REVIEW FINDINGS

      IMPROVED APPROACH TO CCP IMPLEMENTATION
      The Department has made several enhancements to its strategy for modernizing its
      C-LAN systems overseas. Institution of more disciplined practices, partnering with
      the functional and geographic bureaus, and adoption of more efficient processes are
      some of the key improvements identified in the project management approach.




      Initial Approach to CCP Was Unstructured

      From 1998 through 1999, IRM’s Messaging Systems Office, in partnership with the
      Office of Information Technology Infrastructure, LAN and WAN Services Division,
      managed the original CCP. The primary objective of the program at that time was to
      replace outdated Banyan classified networks at a rate of 48 overseas posts per year.
      IRM conducted surveys of overseas posts, purchased and installed equipment, and
      provided training. Theirs was largely an unstructured approach, with no established
      procedures, templates, or project management checklists. As a result, the entire
      process for a single C-LAN installation required as much as 3 to 7 months for
      completion. Given this, along with staffing and funding limitations, IRM deployed
      modern classified networks to a total of 20 locations overseas during the first 2 years
      of the program.




      More Disciplined Program Management
      Approach

      In October 1999, IRM’s Program Management and Analysis (PMA) Division as-
      sumed management responsibility for the C-LAN modernization effort. Established
      as an offshoot of the ALMA program, PMA is currently responsible for large-scale
      deployment of the Department’s worldwide Information Technology Infrastructure.
      Currently, PMA is managing two other programs—ALMA Refresh, and Public
      Diplomacy “Almatization”—in addition to the classified network modernization
      program. In total, PMA manages about $47 million worth of IRM programs, all
      funded primarily from the Central Investment Fund.


4 .    OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002

                                    UNCLASSIFIED
                                     UNCLASSIFIED



    Within 3 months of assuming C-LAN modernization responsibility, PMA
reengineered the program, renaming it the CCP. PMA instilled discipline by applying
generally accepted project management practices and required methodologies, such
as Managing State Projects, to the CCP. CCP implementation has been a complex
undertaking involving the following activities:

•   Conducting initial e-mail surveys of over 200 posts to determine basic customer
    business requirements, followed by physical survey of each site to identify
    specific IT infrastructure requirements;

•   Developing 10 core configuration templates and corresponding cost models for
    C-LAN installations at overseas posts;

•   Conducting market surveys to establish vendor and technical criteria, identify
    potential vendor sources, and encourage competition among suppliers of com-
    mercial off-the-shelf, Tempest, and zoned equipment;

•   Obtaining formal design acceptance from posts and initiating equipment pro-
    curements to meet post configuration requirements;

•   Ensuring security planning and coordinating infrastructure and network support
    with relevant Department organizations;

•   Receiving, testing, integrating, and preparing computing equipment for classified
    pouch shipment overseas; and

•   Coordinating schedules and deploying teams to install C-LAN equipment at each
    target location.

    CCP also involves coordination among many different activities and organiza-
tions. Including the regional bureaus in the project management decisionmaking
process was one of the most constructive changes made to the program. Recogniz-
ing that the regional bureaus would benefit most from a deployment plan that
considers the various criteria of individual posts (i.e., political sensitivities, available
bandwidth, and IT and host nation infrastructure) PMA joined with the regional
bureaus to develop a process whereby the bureaus prioritized overseas posts for C-
LAN installations. PMA works to keep the bureaus involved and up-to-date on the
C-LAN installation progress. At times, PMA coordinates with regional bureaus and
posts willing to provide funding of their own to help further C-LAN installations.
For example, in FY 2000, the Bureau of European Affairs provided funding to the
CCP for modernizations at 16 posts. At least three other embassies funded C-LAN
installations to support their own operations or those of nearby consulates.


OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002   5 .

                                     UNCLASSIFIED
                                    UNCLASSIFIED



           Further, PMA has established service level agreements to govern other coopera-
      tive arrangements. For example, an agreement with IRM’s LAN and WAN Services
      Division outlines this organization’s responsibility for conducting and documenting
      site surveys, preparing approved design packages, performing installations, designing
      formal architectural drawings, and coordinating installation activities with posts.
      PMA also signed service level agreements with the Foreign Service Institute’s School
      of Applied Information Technology to secure systems administrator and end-user
      training on the CableXpress application. Additionally, PMA holds periodic meetings
      with key organizational representatives to discuss cross-functional program issues,
      address infrastructure and network support issues, coordinate ongoing operations,
      and develop processes and policies for achieving program goals and objectives.

          Throughout the CCP effort, PMA has sought to improve its project management
      approach, incorporating a number of innovations. For example, PMA applied
      lessons learned from life-cycle management of the ALMA program. The division
      developed technical and financial databases of systems information for nearly all of
      the Department’s overseas sites. The financial database serves as a management
      information system for controlling the resources associated with the various IT
      modernization initiatives under PMA management. The technical database basically
      documents systems design. As such, it establishes a baseline to control systems
      configurations, guide systems upgrades, and support future systems implementations.
      The technical database serves as a web-based resource that program managers,
      technical personnel, and post officials can all access.

          Further, PMA encouraged a competitive contracting environment, consolidated
      equipment and materiel requirements, and reduced the number of shipments,
      thereby producing real savings for each core system in comparison to C-LAN mod-
      ernization costs under prior program management. In addition, PMA worked with
      acquisition officials to streamline the procurement process, including requesting
      quotes for equipment early in the planning process and purchasing the equipment as
      funding is released instead of waiting until they receive full funding. Further, PMA
      established a new facility to improve warehousing, integrating, and preparing C-LAN
      equipment for shipment.



      CHALLENGES TO SUCCESSFUL CCP IMPLEMENTATION
          The CCP is one of the Department’s top three priority IT initiatives. Though
      currently back on track, the CCP has had a history of funding uncertainties that have
      challenged its successful implementation. The program has also met with a number


6 .    OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002

                                    UNCLASSIFIED
                                     UNCLASSIFIED



of funding, logistical, and procurement challenges that have a direct impact on
project implementation schedules. If not successfully overcome, such challenges
could hinder project managers’ ability to complete C-LAN installations at all eligible
posts by the December 2003 deadline.




Funding Delays Challenged the CCP
Implementation Schedule

Adequate and timely funding has been a problem throughout the history of the CCP.
Repeatedly the program has met with shortages or delays in funding that have
hindered implementation. The following is a summary of CCP funding since the
program’s inception:

•   FY 1998-99: The Department spent approximately $10.2 million on start-up
    activities and installation of new classified equipment at the first 20 locations.
    Much of this initial effort was done to replace legacy and outdated systems at a
    number of posts to help ensure that computers would continue to function
    properly after the January 1, 2000, date change. Apart from Year 2000
    remediation efforts, the majority of the Department’s IT funding was devoted to
    operations and maintenance activities rather than to modernization initiatives.

•   FY 2000: Around the time that PMA assumed responsibility for the program,
    funding had diminished to $1.6 million carried over from the prior year and
    previous program management. By January 2000, PMA was forced to cut back
    on C-LAN modernization activities and terminate about 25 contract personnel.
    As a result, PMA completed only 3 CCP installations and limited work in many
    instances to establishing dial-up classified access for only those posts with no C-
    LAN capability at all. PMA ultimately received about $3.2 million in central
    investment funds to help sustain the program.

•   FY 2001: Again, the program received $3.2 million from the central investment
    fund, and an additional $5 million via the financial plan developed through the
    Department’s internal process for making budget allocation decisions.

    The Secretary’s call for modernization of the Department’s IT systems to sup-
port diplomacy in the current information age has become the driving force for
completing the CCP within the next 2 years. This priority was outlined in the
President’s Budget for FY 2002, presented in February 2001. However, midyear
funding presented a significant impediment to CCP progress in meeting this objec-


OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002   7 .

                                     UNCLASSIFIED
                                       UNCLASSIFIED



      tive. Midyear funding refers to the delays experienced in receiving program funds as
      the Department works through its internal routine process of allocating funds from
      Congressional appropriations, which may not have been enacted until well into the
      fiscal year. Specifically, in early April 2001, PMA formally requested funds from
      IRM, FMP, and Bureau of Administration managers in the amount of $8.7 million
      by mid-April and $16.3 million by early July 2001. PMA officials stated that the
      amounts and the timing specified for funding were necessary to “kick start” phase
      two of the CCP to meet their ambitious 2-year installation schedule. However, PMA
      did not receive the approximately $26 million in requested funding until the mid-June
      to July 2001 time period, requiring that the division compress the program schedule
      to compensate for the funding date change.

           According to PMA officials, when they do not get the funds needed on time and
      in the amounts specified, planning for this complex program “falls apart.” Specifi-
      cally, the 2-month funding delay meant redoing plans and postponing critical CCP
      activities, such as site surveys and corresponding development of approved design
      packages for post installations. Procurement of Tempest and zoned equipment that
      already typically requires lead times of 90 to 120 days were pushed further out.5
      Readiness of the new facility acquired for warehousing, integrating, and packing and
      crating of C-LAN equipment in preparation for shipment was also slowed.

          As of September 2001, CCP funding was on track given receipt of the $26
      million in funding during the preceding summer. Despite prior years’ budget uncer-
      tainties, the funding outlook for the CCP in FY 2002 appears positive. By confer-
      ence agreement on November 9, 2001, the Congress appropriated funds for Depart-
      ment programs. The agreement specifies approximately $107 million for the replace-
      ment of computer and communications equipment that posts use for classified
      operations. The Department is now preparing a financial plan, which it will use to
      allocate funds in accordance with Congressional direction. The Under Secretary for
      Management will have responsibility for the final IT funding decisions based on
      recommendations of other senior managers in the Department.




      5
        Tempest equipment is technology that has been designed or modified to suppress compromis-
      ing signals and has been approved at the national level for U.S. classified information processing
      after undergoing specific tests. Zoning refers to the selection and placement of classified equip-
      ment within predetermined secure areas of a facility in order to contain radiated emanations.




8 .       OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002

                                       UNCLASSIFIED
                                     UNCLASSIFIED




Ongoing Risks to CCP Implementation
Schedule

CCP progress is faced with various other risks, for which PMA has taken consider-
able countermeasures but has no definitive solutions. Specifically, as stated in
monthly status reports to the Under Secretary for Management since June 2001,
CCP progress could potentially be deterred by risks in the following areas:

•   Procurement: Contract and procurement procedures are cumbersome and slow,
    and there are a limited number of vendors with limited capacity to meet the
    increased volume of equipment delivery orders.

•   Logistics: Packing and crating operations are currently at peak capacity. It is not
    certain whether the current controlled pouch system will be able to accommo-
    date an increase in surface shipments of 150,000 pounds per month, and pouch
    shipments by air are too expensive.

•   Space, Facilities, and Resources: The physical movement of goods currently
    requires six moves. Cleared storage, integration, and office space is at capacity
    and additional resources are required to make the new warehouse operational.

•   Hardware: Production has ceased on current, approved network encryption
    devices and the availability date remains unknown for successor devices.

•   Bandwidth: As of September 2001, over 30 posts still had less than the mini-
    mum requirement of 64 kilobytes per second of bandwidth. The Diplomatic
    Telecommunications Service Program Office (DTS-PO) is responsible for
    providing bandwidth needed to support C-LAN installations.

    PMA officials discussed with us their remediation strategies for countering these
risks. For example, PMA officials have worked with acquisition officials to identify
multiple sources of supply and increase competition among vendors. They have also
included supplier ability to deliver equipment on schedule as a criterion for contract
award decisions, thereby better ensuring prompt deliveries and reducing the lead time
needed for equipment procurements. The new warehouse and integration facility
constructed to facilitate logistics management was completed on time and is already
in use.

    PMA officials told us that they had also stockpiled about 72 of the current,
approved encryption devices to support CCP deployments through June 2002 and
anticipate that the successor devices will be available shortly thereafter. In August

OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002   9 .

                                     UNCLASSIFIED
                                     UNCLASSIFIED



       2001, IRM submitted requests to DTS-PO for additional bandwidth to support both
       the CCP and the OpenNet Plus Program, which is intended to provide Internet
       access at the desktop for Department users at locations worldwide. Obtaining the
       minimum bandwidth needed for CCP is first priority. Posts for which providing
       bandwidth is most difficult will be last on the list to receive the modern C-LAN
       equipment, allowing added time for the bandwidth installations.

           Further, PMA officials recognize their limitations to address risks regarding peak
       capacity packing and crating and shipping operations. Because they are not currently
       shipping, they do not know whether they will be able to meet increased deployment
       requirements. However, PMA officials said that they are planning ahead as much as
       possible and remain optimistic about meeting their ambitious CCP deployment
       schedule.




       Current Status of CCP Installation Progress

       Despite the challenges, the CCP effort continues to move forward. In addition to
       the 20 installations carried out under prior program management, PMA has com-
       pleted 55 more installations, for a total of 75 C-LAN modernizations under CCP
       Phase I. This first phase of the program involves funding and activities from the
       program start in 1998 through about January 2002. CCP Phase II, scheduled to
       begin in mid-FY 2002, involves installing modern C-LAN at 180 additional posts and
       revisiting 10 other combination classified NT/Banyan LAN posts that require
       upgrades. Regional bureau priorities for installing C-LAN equipment at the first 50
       posts scheduled under CCP Phase II are to be addressed starting in April 2002 and
       due to be completed by the end of FY 2002. C-LAN installations at the remainder
       of the approximately 250 candidate posts are due to be completed by December
       2003. The total cost for CCP implementation is estimated at about $200 million,
       including approximately $50 million in infrastructure support costs for such items as
       network management and bandwidth augmentation.



       CCP SECURITY PLANNING NEEDS IMPROVEMENT
       The Department lacks a documented approach for managing the security risks of
       modernized C-LAN equipment being deployed to its overseas posts. The
       Department’s IT contingency planning efforts also have not been adequate to help
       ensure that systems such as the new C-LAN are covered by strategies for continuing


10 .    OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002

                                     UNCLASSIFIED
                                       UNCLASSIFIED



or restoring mission-critical operations in case of unexpected disruptions in service.
Addressing these issues is essential, especially given general IT and C-LAN-specific
security weaknesses OIG identified in various reports over the past 2 years.




No Definitive CCP Certification and
Accreditation Strategy

The Department has not developed a definitive strategy for managing the security
risks of its CCP deployments. As directed by various legislation and policy guid-
ance,6 executive departments and agencies are to establish processes for authorizing
and ensuring the security of the IT systems that they implement. The National
Information Assurance Certification and Accreditation Process (NIACAP) devel-
oped by the National Security Telecommunications and Information Systems Secu-
rity Committee outlines a phased, risk-management framework for meeting these IT
security requirements.7 Specifically, the NIACAP outlines the minimum national
standards, activities, general tasks, and management structure for systems certifica-
tion and accreditation. The NIACAP defines certification as the independent,
technical review of a system to identify risks and ensure that the system meets
Federal IT security requirements. Accreditation is the subsequent formal acceptance
of the risks identified through certification and approval to operate the system,
ensuring that the accredited security posture will be maintained throughout the
system life cycle. The NIACAP directs that a System Security Authorization Agree-
ment (SSAA) be initiated at the outset of an IT project to guide certification and
accreditation activities and document agreements among responsible authorities.

    The Bureau of Diplomatic Security (DS)—the Department’s certification author-
ity—has not completed the steps needed to certify the classified Windows NT LAN
in accordance with Federal requirements. In an April 1999 memorandum, DS
approved IRM use of standard software to begin the CCP. DS provided the initial
approval on the condition that all systems configurations and settings be performed
as outlined in supporting documentation, and with the assumption that the required
physical, personnel, and emanation security environments are established to support
the system. Despite ongoing C-LAN deployments, DS has subsequently not worked
to certify the system and ensure that these conditions and assumptions were fulfilled.

6
 Computer Security Act of 1987(Public Law 100-235, as amended); Office of Management and Budget
Circular A-130, Management of Federal Information Resources, Appendix III; and The Federal Infor-
mation Processing Standard Publication 102, Guidelines for Computer Security Certification and Accredi-
tation.
7
    The four phases of the NIACAP are definition, verification, validation, and post accreditation.

OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002       11 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED



            In recent discussions, DS officials told us that, as authorized by the NIACAP,
       they plan to recommend a “type accreditation” of the CCP configuration. As
       defined in the NIACAP, a type accreditation evaluates an application or system that
       is distributed to a number of different locations. As such, DS officials believe that a
       type accreditation is appropriate for the CCP, which involves deploying a simple,
       standard, hardware and software configuration to multiple posts worldwide. DS
       officials stated that the type accreditation would be supported by a central SSAA,
       with input by the PMA and various other organizations, as a basis for a final accredi-
       tation decision.

           Further, DS officials said that they would travel abroad to certify the C-LAN in
       each overseas post environment, starting in late FY 2003. They said that the C-LAN
       certifications overseas will be conducted in conjunction with certification and ac-
       creditation for the OpenNet Plus program. Both the CCP and the OpenNet Plus
       Program are based on standard hardware and software configurations using the same
       telecommunications infrastructure, with the only differences being bandwidth
       requirements and the classification levels of information. DS officials said that the
       joint certification approach will involve assessments of all aspects of individual post
       environments (i.e., physical, personnel, and technical) that could affect the security
       of their classified information processing activities. DS officials indicated that post
       officials, such as the information management officer, regional security officer, or
       information systems security officer, who will be responsible for managing the
       operational systems, will also be responsible for developing the SSAAs to support
       systems certification and accreditation. DS officials stated that they would provide
       toolkits for posts to use in developing their SSAAs.

            This overall certification and accreditation strategy may prove viable. However,
       we are concerned about certain aspects of the stated approach, such as delaying the
       C-LAN certification activities until FY 2003. According to the NIACAP, certifica-
       tion and accreditation of a system should be started at the beginning of a system’s
       life cycle. Though C-LAN deployments have been completed at 75 locations since
       1998, DS has not worked to test, verify, and ultimately certify the security of the
       classified processing environments. Posts are responsible for management and
       routine reporting of classified information processing operations in accordance with
       existing internal Department guidance and DS routinely sends teams overseas to
       evaluate compliance. Lacking certification, however, there is no central oversight or
       in-depth assessments to identify technical or environmental security risks. Lacking
       accreditation, there is also no formal acceptance or accountability for managing
       those risks by site managers or chiefs of mission. In December 2001, DS officials
       said that, using existing resources, the type accreditation would likely be conducted in
       2002. However, due to funding constraints, they said that post visits and certifica-


12 .    OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002

                                     UNCLASSIFIED
                                     UNCLASSIFIED



tions would probably not occur for at least another year and a half. DS officials said
that they planned to include funds for post certification activities in their FY 2003
budget.

     Further, we are concerned about the lack of an overall documented plan for
carrying out the C-LAN certification approach. Discussions between OIG and
responsible DS and IRM officials have yielded conflicting perspectives on how C-
LAN certification and accreditation might be conducted. The only documented
certification and accreditation plans we identified are for the OpenNet Plus project,
outlining plans for testing and independent verification and validation of that system
alone. The testing will be conducted as a prelude to certification and accreditation,
at a cost of $30 million for DS and $7 million for IRM. In the absence of a clear,
documented strategy, it is not certain what the certification and accreditation will
include, how it will be conducted, and at what cost.

     In late December 2001, DS officials told us that they were planning to hold their
first meeting to outline a strategy that would include the CCP type accreditation as
well as subsequent certification and accreditation for posts worldwide. They said
that the strategy would include details on their planned certification and accreditation
approach, ultimately for presentation to the designated approving authority. They
expected to have a first draft of the strategy by March 2002. At the time of our
meeting, DS officials had no plans to include IRM representatives in their discus-
sions to develop the strategy. We believe that IRM’s involvement will be essential
since it is the organization responsible for accrediting the CCP based on DS’ certifi-
cation recommendation. If not involved, the DS strategy might not provide all of
the elements needed as a basis for the accreditation decision.

    Federal requirements for systems certification and accreditation are not new,
dating back to Federal Information Processing Standard 102, Guideline for Computer
Security Certification and Accreditation, disseminated in September 1983. Since then, the
Department has restated several times its commitment to complying with certifica-
tion and accreditation requirements. However, to date, the Department has under-
taken certification and accreditation of only 5 percent of the 370 major automated
systems that OIG identified in our report on implementation of GISRA. The
Department recently released Certification and Accreditation (C&A) Process, Version 1.0,
August 2001, outlining its overall program for certifying and accrediting its IT
systems. The process document is based on Department and National directives,
including the NIACAP and National Institute of Standards and Technology guid-
ance. When finalized, the document should strengthen the foundation for develop-
ing a well-defined C-LAN certification and accreditation strategy within the
Department.


OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002   13 .

                                     UNCLASSIFIED
                                        UNCLASSIFIED




       IT Contingency Planning Inadequate to
       Support CCP Implementation

       The Department’s IT contingency planning efforts have not been adequate to help
       safeguard classified information systems and the critical business functions that they
       support in the event of unexpected disruptions at posts overseas. As defined by the
       National Institute of Standards and Technology, an IT contingency is an event—
       such as a power outage, hardware failure, fire, or storm—with the potential to
       disrupt computer operations and the critical mission and business functions that they
       support. Office of Management and Budget Circular A-130 requires that agencies
       establish contingency plans for all major systems to ensure their ability to recover
       and provide service sufficient to meet the minimal needs of system users in the
       event of unplanned disruptions. The Office of Management and Budget also
       requires that agencies periodically test their contingency plans to ensure viability.
       The National Information Assurance Certification and Accreditation Process further
       requires that IT contingency plans be in place to support systems certification.

           IT contingency planning involves the coordination of personnel and integration
       of a series of tasks, procedures, and information to direct actions for reducing
       confusion, improving communications, and achieving the timely continuation or
       resumption of business at the time of a disruption. IT contingency management
       strategies include a range of backup operations, remote data storage, communica-
       tions rerouting, or alternate information processing capabilities. In accordance with
       foreign affairs guidance,8 contingency plans are to be coordinated with Emergency
       Action Plans, which embassies and consulates are required to have for emergencies
       of any kind. Along with other requirements, IT contingency plans are also a critical
       element of the SSAA documentation required to support the systems certification
       and accreditation process.

           Given the classified nature of the information processed on the system, IT
       contingency planning should be critical to supporting CCP deployment. However,
       OIG found that the Department has not given sufficient focus and emphasis to this
       activity. Based on various OIG and DS information security evaluations at overseas
       posts in recent years, a significant number of posts do not have IT contingency plans
       in place. IRM officials that we met with estimated that as many as 85 to 90 percent

       8
           Department of State Foreign Affairs Manual 12, section 622.3-2.




14 .       OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002

                                        UNCLASSIFIED
                                     UNCLASSIFIED



of posts lack such plans. We found this to be the case despite the recent emphasis
on contingency planning to support the Year 2000 date change less than 2 years ago.
Further, there are currently multiple mechanisms in place for developing and imple-
menting IT contingency plans. For example, we identified at least three toolkits or
programs available to support IT contingency planning, as follows.

•   The Diplomatic Security Training Center provides training for technical person-
    nel on the development of Network Countermeasures Contingency Plans.

•   A contingency guide developed by IRM’s Office of Architecture, Planning, and
    Regulations is intended to help create cost-effective strategies for dealing with
    unexpected events.

•   IRM’s Systems Integrity Division is developing and testing tools for domestic
    organizations and overseas posts to implement IT contingency plans. IRM
    officials recently indicated that these tools will be used to support IT contin-
    gency planning as a prerequisite for obtaining OpenNet Plus capability.

    The IT contingency planning programs that we identified emphasize different
aspects of IT contingency planning. For example, the DS program focuses more on
managing contingency events, while the IRM program emphasizes development of
an inventory and database to help restore systems operations after a disruption. We
nonetheless found that these plans have redundant requirements for meeting the
same objectives, indicating a lack of oversight and coordination throughout the
Department. Consolidation and integration of these programs would be appropriate
for consistent IT contingency planning at headquarters, as well as at embassies and
consulates abroad. This will be key to supporting not just the CCP, but systems
security management in general within the Department’s overall IT infrastructure.




Need for Improved CCP Security Planning
Underscored in Recent Reports

Addressing these CCP security issues is essential, especially given increasing risks to
information processing in the current technology age. Rapid expansion in computer
interconnectivity poses significant risk of malicious intrusions into inadequately
protected systems. Heightened dependence on automation to process sensitive
information and conduct mission-critical business also enhances the need to control
management and ensure proper use and functioning of computer networks hosted in
U.S. missions abroad.


OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002   15 .

                                     UNCLASSIFIED
                                       UNCLASSIFIED



            The need for effective CCP risk management strategies is underscored by recent
       OIG reports on a range of deficiencies in the Department’s information security
       management environment. Specifically, our recent report on the Department’s
       progress in implementing key requirements of GISRA9 discussed broad deficiencies
       in information assurance. Both OIG and DS evaluations over the past 2 years
       identified weak information security management practices at dozens of overseas
       posts. OIG indicated, for example, that only 10 of the 35 posts in one region
       reviewed by OIG security teams in 1999 and 2000 had adequate information security
       procedures in place. According to OIG’s survey questionnaire, although 59 percent
       of the Department’s 371 systems are reported to have risk assessments, only 10
       percent are reported to have security plans, as required by GISRA. OIG identified
       additional concerns with the Department’s progress in developing and implementing
       its cyber-based critical infrastructure protection plan, as mandated by Presidential
       Decision Directive 63. According to DS officials, many of the reported information
       security issues are systemic and require a change in culture of the Department’s
       systems management and users in order to be resolved.

            Further, several OIG inspection reports in recent months identified C-LAN-
       specific management deficiencies in both the outdated Banyan and newly modern-
       ized C-NT LAN environments. These deficiencies include a lack of configuration
       management, access controls, and IT contingency planning, as discussed above. DS
       evaluations of classified operations at posts also identified deficiencies with C-NT
       LAN equipment. As part of our review, we studied a random sample of 21 DS
       reports from IT evaluations in the past 2-3 years and found instances where C-LAN
       servers had been locking up and showed signs of imminent system failure. The DS
       evaluation reports identified locations where C-LAN equipment without back-up
       programs also had the potential for network failures. DS evaluations we reviewed
       found that sometimes C-LAN users were not establishing passwords correctly to
       guard access to their workstations. The evaluations included discussions of embassies
       that did not have security settings for the C-LAN in accordance with the
       Department’s Windows NT configuration standards. When done correctly, these
       settings help safeguard the integrity of information on the system from risk of
       compromise. Further, DS found a virus on one embassy’s classified system. These
       are all issues that could be addressed through improved information security plan-
       ning and risk management strategies as C-LAN modernization continues.



       9
         Senior Management Attention Needed to Ensure Effective Implementation of the Government Information
       Security Reform Act, Office of Inspector General, U.S. Department of State, Memorandum Re-
       port 01-IT-M-082, September 2001.




16 .    OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002

                                       UNCLASSIFIED
                                     UNCLASSIFIED




   Recommendation 1: The Bureaus for Information Resource Management
   and Diplomatic Security should develop a documented strategy and schedule
   for C-LAN certification and accreditation to help identify and manage risks to
   secure classified processing at overseas posts.



   Recommendation 2: The Bureau of Information Resource Management
   should coordinate and consolidate its information technology contingency
   planning training and support activities with similar activities in other Depart-
   ment organizations to ensure that standardized approaches are used to develop
   and implement plans for safeguarding modernized classified processing opera-
   tions in case of unexpected disruptions at overseas posts.




DEPARTMENT COMMENTS AND OUR EVALUATION
We obtained comments on a draft of this report from the Office of the Under
Secretary for Management and the Bureaus of Information Resource Management
and Diplomatic Security. We have incorporated their comments where appropriate
and included copies of their comments at Appendix B.

     In its comments, the Office of the Under Secretary for Management stated that
it believed that a recommendation included in the draft report, which advised the
office to ensure timely funding to help address identified risks and complete overseas
C-LAN modernizations by the December 2003 deadline, was inappropriate. The
office stated that connectivity, both classified and unclassified, is already the
Secretary’s highest IT priority and that instructions to implement the CCP are clear,
requiring no recommendation from OIG in this regard. We deleted the recommen-
dation from the report because, in contrast to prior years’ uncertainties, the CCP
funding outlook now appears more positive. By conference agreement on Novem-
ber 9, 2001, the Congress appropriated funds for Department programs, specifying
approximately $107 million for the replacement of computer and communications
equipment that posts use for classified operations. The Department is now prepar-
ing a financial plan, which it will use to allocate funds in accordance with Congres-
sional direction. The Under Secretary for Management will have responsibility for
the final IT funding decisions based on recommendations of other senior managers
in the Department.




OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002   17 .

                                     UNCLASSIFIED
                                     UNCLASSIFIED



            IRM and DS responses to Recommendation 1, directed to both their bureaus, do
       not adequately address our concerns about the approach to managing CCP informa-
       tion security risks. Specifically, IRM officials agreed with the recommendation,
       stating that IRM and DS have already developed preliminary strategies related to C-
       LAN certification and accreditation and have outlined an approach for joint imple-
       mentation with the OpenNet Plus program. DS officials indicated that the Depart-
       ment has an established program for certification and accreditation of its classified
       and unclassified IT systems in compliance with Department and national directives.
       Further, DS officials discussed their commitment to independent verification and
       validation of the OpenNet Plus implementation project, which they believe will
       support the Department’s certification and accreditation process scheduled to begin
       FY 2003.

            We acknowledge the Department’s development of a certification and accredita-
       tion process and its preliminary strategies for joint certification and accreditation of
       the Department’s IT priority projects, and discuss these issues above. Though the
       preliminary strategies that IRM officials cited are a start, as discussed above, IRM
       and DS have not developed detailed and documented strategies on how the certifica-
       tion and accreditation process will be applied to help manage CCP information
       security risks.

           IRM and DS provided conflicting responses to Recommendation 2, also directed
       to both bureaus. Specifically, IRM officials agreed with the recommendation, stating
       that CCP managers are currently soliciting contingency plans from locations that
       have modern C-LAN equipment as a means of developing a template to facilitate
       plan creation at other posts. IRM officials further stated that foreign affairs guidance
       already requires coordination of IT contingency plans with emergency action plans
       and that they are working closely with DS officials in this regard. In their response,
       however, DS officials stated that, per agreements with the Office of Management,
       oversight of the development and implement of security and contingency plans is
       the responsibility of IRM, not DS. We recognize the division in computer security
       roles and responsibilities and take no issue with this in our report. Rather, as dis-
       cussed above, our concern focuses on the existence of redundant IT contingency
       programs and toolkits—including technical training provided by the DS Training
       Center—and the lack of adequate IT contingency plans at all overseas posts. We
       have revised our report to recommend that IRM coordinate and consolidate its IT
       contingency planning program with related activities in other Department organiza-
       tions to help promote consistent IT contingency planning to support not just the
       CCP, but the Department’s overall IT infrastructure.




18 .    OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002

                                     UNCLASSIFIED
                                     UNCLASSIFIED



                                       APPENDIX A

                   PURPOSE, SCOPE, AND METHODOLOGY



     The number one goal in the Department’s Strategic IT Plan, FY 2001-FY 2005,
is instituting a secure global communications network and IT infrastructure to help
meet the challenge of e-diplomacy in the new millennium. The CCP is helping to
meet this challenge by providing a commercial-style network and modern hardware
and software for classified information processing and exchange at the desktop level.
The Secretary’s call for enhanced capabilities in the Department through the use of
state of the art information technology provides the impetus for accomplishing the
CCP within the next 2 years.

     In accordance with our goal of helping to ensure more effective, efficient, and
secure operations and infrastructures within the Department, OIG conducted a
review of the Department’s approach to CCP implementation. Specific objectives
of our survey were to: (1) determine what, if any, security or operational problems
are inherent in current classified local area networks overseas; (2) assess the
Department’s approach to planning and implementing its C-LAN systems modern-
ization via the Classified Connectivity Program; and (3) identify what changes may
be needed to the Department’s modernization approach.

    To fulfill our review objectives, we conducted web research to obtain background
information on the Department’s existing C-LAN infrastructure overseas, ongoing
activities to improve classified connectivity, and criteria to govern these moderniza-
tion activities. We examined a range of IT and security guidance, including Federal
laws and policies, executive directives, Department regulations, and accepted project
methodologies, that could be applied to the C-LAN implementation approach. We
used these criteria to assess CCP management information obtained through discus-
sions with and documentation provided by officials from various offices within IRM.

    We also met with DS officials to discuss the Department’s approach to identify-
ing the risks and managing the security of the classified system. We interviewed
officials in the Bureau of Administration to talk about CCP acquisition and logistics
management issues. Senior managers in the Bureau of Financial Management and
Policy told us about funding and budgeting for the program. Officials in DTS-PO
told us about plans to provide the bandwidth needed to support classified informa-
tion processing overseas. Further, we met with officials from selected regional
bureaus within the Department to learn about problems experienced with existing
classified networks, their role in CCP implementation, and benefits derived from the
modernization efforts.
OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002   19 .

                                     UNCLASSIFIED
                                     UNCLASSIFIED



            This review was an initial, high-level evaluation of ongoing CCP activities to gain
       an understanding of the planning and implementation approach and to identify
       general areas for potentially improving program direction. As such, we limited our
       review to an assessment of efforts to deploy equipment for the CCP. We did not
       visit posts to assess actual CCP installations, operations, or maintenance. We also did
       not conduct full assessments of the related SIPRNET router-based network or
       applications such as CableXpress that the C-LAN will support.

          We conducted our review from March to September 2001 at the Department in
       Washington, DC. We performed our work in accordance with generally accepted
       government auditing standards. Major contributors to this report were Frank Deffer,
       Sondra McCauley, Cassandra Moore, Tim Fitzgerald, and Sharon Hunter. Com-
       ments or questions about the report can be directed to Frank Deffer, IT Evaluations
       and Operations, at defferf@state.gov or (703) 284-2715.




20 .    OIG Report No. IT-A-02-01, Classified Connectivity Program: Progress and Challenges – February 2002

                                     UNCLASSIFIED
